No. 19-985
Su the Supreme Court of the United States

NATIVE WHOLESALE SUPPLY CO., Petitioner,
v.

STATE OF CALIFORNIA EX REL. XAVIER BECERRA,
ATTORNEY GENERAL, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition filed by respondent contains 6,801 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Dated: June 5, 2020

Respectfully submitted,

XAVIER BECERRA
Attorney General of California

ie —

JOSHUA A. KLEIN
Deputy Solicitor General

Counsel of Record for Respondent
